CERTIFICATE OF SERVICE
Undersigned counsel certifies that on this date, the 19th day of February
2021, pursuant to Supreme Court Rules 29.3 and 29.4, the accompanying motion for
leave to proceed in forma pauperis and petition for a writ of certiorari was served on
each party to the above proceeding, or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing these documents
in the United States mail properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those served are as follows:
James Stewart
District Attorney Caddo Parish
430 Fannin St.
Shreveport La. 71101

Elizabeth B. Murrill
Louisiana Department of Justice
P.O. Box 94005
Baton Rouge, Louisiana 70804
Phone: (225) 326-6766
Email: MurrillE@ag.louisiana.gov

Respectfully Submitted,

BLYTHE TAPLIN
THE PROMISE OF JUSTICE INITIATIVE
1024 ELYSIAN FIELDS AVENUE
NEW ORLEANS, LA 70117
(504) 529-5955
* COUNSEL OF RECORD

